No. ______

In the Supreme Court of the United States
________________________
JOHN J. WATFORD,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
_____________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

________________________
PETITION FOR A WRIT OF CERTIORARI
________________________
DAVID A. O’NEIL
DEBEVOISE & PLIMPTON LLP
801 Pennsylvania Ave. N.W.
Washington, D.C. 20004

JOHN GLEESON
Counsel of Record
MARISA R. TANEY
MATTHEW SPECHT
DEBEVOISE & PLIMPTON LLP
919 Third Avenue
New York, NY 10022
(212) 909-6000
jgleeson@debevoise.com

i

QUESTION PRESENTED
Whether a district court may consider the 2018
amendment to the sentences mandated by 18 U.S.C.
§ 924(c) in determining whether a defendant has
shown “extraordinary and compelling reasons” warranting a sentence reduction under 18 U.S.C.
§ 3582(c)(1)(A)(i).

ii

PARTIES TO THE PROCEEDINGS
All parties appear in the caption of the case on
the cover page.

iii

RELATED PROCEEDINGS
United States v. Watford, No. 21-1361 (7th Cir.) (order granting summary affirmance issued August
2, 2021).
United States v. Watford, No. 3:97-CR-26(2) (RLM)
(N.D. Ind.) (order denying motion for sentence reduction
issued
February
12,
2021).

iv

TABLE OF CONTENTS
Page
Question Presented ..................................................... i
Parties to the Proceeding ........................................... ii
Related Proceedings .................................................. iii
Table of Authorities....................................................vi
Opinions Below ............................................................1
Jurisdiction ..................................................................1
Statutory Provisions Involved ....................................1
Introduction .................................................................5
Statement .................................................................. 10
Reasons for Granting the Writ ................................. 16
A.

The Question Presented Concerns an
Intractable, Acknowledged Circuit Split
on a Recurring Question Only This Court
Can Resolve..................................................... 17
1.

2.

3.

Three Courts of Appeals Have Held
District Courts Cannot Consider
the First Step Act’s Changes to
Section 924(c). ...................................... 17
Two Courts of Appeals Have Held
District Courts May Consider the
First Step Act’s Changes to Section
924(c). ................................................... 20
The Circuit Conflict Will Not
Resolve Without a Decision From
This Court. ........................................... 21

B.

The Decision Below is Incorrect. .................... 22

C.

The Issue is Important and Recurring. ......... 26

v

D.

This Case Presents an Ideal Vehicle. ............ 27

Conclusion ................................................................. 29

APPENDIX
Opinion of the Seventh Circuit ................................. 1a
Opinion of the District Court .................................... 4a

vi
TABLE OF AUTHORITIES
CASES
Deal v. United States, 508 U.S. 129 (1993) ........... 11
United States v. Andrews, 12 F.4th 255(3d.
Cir. 2021) ..................................................... 19, 21
United States v. Decator, 452 F. Supp. 3d 320
(D. Md. 2020) ..................................................... 24
United States v. Jarvis, 999 F.3d 442 (6th Cir.
2021) ...................................................... 18, 21, 22
United States v. Maumau. 993 F.3d 821 (10th
Cir. 2021) ..................................................... 21, 26
United States v. McCoy, 981 F.3d 271 (4th Cir.
2020) ................................................ 20, 21, 23, 26
United States v. Owens, 996 F.3d 755 (6th Cir.
2021) .................................................................. 18
United States v. Redd, 44 F. Supp. 3d. 717
(E.D. Va. 2020) .................................................. 23
United States v. Thacker, 4 F.4th 569 (7th Cir.
2021) ...........................................................passim
United States v. Tomes, 990 F.3d 500 (6th Cir.
2021) .................................................................. 18
STATUTES
18 U.S.C. § 3582(c)(1)(A) .................................passim

vii
18 U.S.C. § 3582(c)(1)(A)(i) .............................passim
28 U.S.C. § 994(t) ............................................... 8, 23
Comprehensive Crime Control Act of 1984,
Pub.L. No. 98-473, § 1005(a), 98 Stat. 21382139 ................................................................... 10
Pub.L. No. 100-690, § 6460, 102 Stat. 4373
(1988) ................................................................. 10
Pub. L. No. 105–386, 112 Stat. 3469 (1998) .......... 11
OTHER AUTHORITIES
164 Cong. Rec. S7774 (daily ed. Dec. 18, 2018) ....... 7
DEP’T OF JUSTICE, OFFICE OF THE INSPECTOR
GEN, THE FEDERAL BUREAU OF PRISONS’
COMPASSIONATE RELEASE PROGRAM (2013). . 7, 14
Mandatory Minimums and Unintended Consequences: Hearing on H.R. 2934, H.R.
834, and H.R. 1466 Before the Subcomm.
on Crime, Terrorism and Homeland Security of H. Comm. on the Judiciary, 111th
Cong. (2009) ...................................................... 11
S. Rep. No. 225, 98th Cong., 1st Sess. (1983) .. 13, 23
U.S. SENT’G COMM’N, FIFTEEN YEARS OF
GUIDELINES SENTENCING (2004) ................. 12, 24
U.S. SENT’G COMM’N, INTERACTIVE DATA
ANALYZER ........................................................... 24

viii
U.S. SENT’G COMM’N, MANDATORY MINIMUM
PENALTIES FOR FIREARMS OFFENSES IN THE
FEDERAL CRIMINAL JUSTICE SYSTEM (2018) 12, 25
U.S. SENT’G COMM’N, REPORT TO THE
CONGRESS: MANDATORY MINIMUM
PENALTIES IN THE FEDERAL CRIMINAL
JUSTICE SYSTEM (2011).......................... 11, 12, 24

1
OPINIONS BELOW
The decision of the court of appeals (Pet. App. 1a)
is unreported but available at 2021 WL 3856295.
The decision of the district court (Pet. App. 4a) is unreported but available at 2021 WL 533555.
JURISDICTION
The decision of the court of appeals was entered
on August 2, 2021. The jurisdiction of this Court is
invoked under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
Section 403 of the First Step Act, titled “Clarification
of Section 924(c) of Title 18, United States Code,”
states:
(a) In General.—Section 924(c)(1)(C) of title 18,
United States Code, is amended, in the matter
preceding clause (i), by striking “second or subsequent conviction under this subsection” and inserting “violation of this subsection that occurs
after a prior conviction under this subsection has
become final”.
(b) Applicability to Pending Cases.—This section,
and the amendments made by this section, shall
apply to any offense that was committed before
the date of enactment of this Act, if a sentence for
the offense has not been imposed as of such date
of enactment.

2
Section 603 of the First Step Act states, in relevant
part:
(b) Increasing The Use And Transparency Of
Compassionate Release.—Section 3582 of title 18,
United States Code, is amended—
(1) in subsection (c)(1)(A), in the matter preceding clause (i), by inserting after “Bureau of
Prisons,” the following: “or upon motion of the
defendant after the defendant has fully exhausted all administrative rights to appeal a
failure of the Bureau of Prisons to bring a motion on the defendant’s behalf or the lapse of
30 days from the receipt of such a request by
the warden of the defendant’s facility, whichever is earlier”
18 U.S.C. § 3582 states, in relevant part:
(c) Modification of an Imposed Term of Imprisonment.—The court may not modify a term of imprisonment once it has been imposed except
that—
(1) in any case—
(A) the court, upon motion of the Director
of the Bureau of Prisons, or upon motion of
the defendant after the defendant has fully
exhausted all administrative rights to appeal a failure of the Bureau of Prisons to
bring a motion on the defendant’s behalf or
the lapse of 30 days from the receipt of

3
such a request by the warden of the defendant’s facility, whichever is earlier, may
reduce the term of imprisonment (and may
impose a term of probation or supervised
release with or without conditions that
does not exceed the unserved portion of the
original term of imprisonment), after considering the factors set forth in section
3553(a) to the extent that they are applicable, if it finds that—
(i) extraordinary and compelling reasons warrant such a reduction; or . . .
and that such a reduction is consistent with applicable policy statements issued by the Sentencing
Commission.
18 U.S.C. § 3553(a) states, in relevant part:
(a) Factors to be considered in imposing a sentence.—The court shall impose a sentence sufficient, but not greater than necessary, to comply
with the purposes set forth in paragraph (2) of
this subsection. The court, in determining the
particular sentence to be imposed, shall consider—
(1) the nature and circumstances of the offense
and the history and characteristics of the defendant;
(2) the need for the sentence imposed—

4
(A) to reflect the seriousness of the offense,
to promote respect for the law, and to provide just punishment for the offense;
(B) to afford adequate deterrence to criminal conduct;
(C) to protect the public from further
crimes of the defendant; and
(D) to provide the defendant with needed
educational or vocational training, medical
care, or other correctional treatment in the
most effective manner;
(3) the kinds of sentences available;
(4) the kinds of sentence and the sentencing
range established for—
(A) the applicable category of offense committed by the applicable category of defendant as set forth in the guidelines—
(i) issued by the Sentencing Commission
pursuant to section 994(a)(1) of title 28,
United States Code, subject to any
amendments made to such guidelines
by act of Congress (regardless of whether such amendments have yet to be incorporated by the Sentencing Commission into amendments issued under
section 994(p) of title 28); and

5
(ii) that, except as provided in section
3742(g), are in effect on the date the defendant is sentenced; . . .
(5) any pertinent policy statement—
(A) issued by the Sentencing Commission
pursuant to section 994(a)(2) of title 28,
United States Code, subject to any
amendments made to such policy statement by act of Congress (regardless of
whether such amendments have yet to be
incorporated by the Sentencing Commission into amendments issued under section
994(p) of title 28); and
(B) that, except as provided in section
3742(g), is in effect on the date the defendant is sentenced.
(6) the need to avoid unwarranted sentence
disparities among defendants with similar
records who have been found guilty of similar
conduct; and
(7) the need to provide restitution to any victims of the offense.
INTRODUCTION
This case squarely presents an important issue of
statutory interpretation that has deeply divided the
federal courts of appeals: whether a district court

6
may consider the First Step Act’s amendment to 18
U.S.C. § 924(c), which dramatically reduced the
mandatory consecutive sentences for “second or successive convictions” under that law in virtually all
cases, in determining whether a sentence should be
reduced under 18 U.S.C. § 3582(c)(1)(A)(i).
Three courts of appeals, including the Seventh
Circuit, have answered that question in the negative.
These courts have held that because the amendment
to Section 924(c) was not made categorically retroactive, it cannot be considered, either standing alone or
in combination with other factors, in determining
whether “extraordinary and compelling reasons”
warrant a sentence reduction under Section 3582(c)(1)(A)(i). Two courts of appeals have
reached the opposite conclusion, correctly holding
that the plain language of Section 3582(c)(1)(A)(i)
permits district courts to consider the First Step
Act’s seismic changes to Section 924(c) when determining whether such reasons are present. Three
courts of appeals have acknowledged the split of authority on this question.
The question presented concerns two important
provisions of the First Step Act. The first is Section
403, which effectively reversed this Court’s 1993 interpretation of 18 U.S.C. § 924(c) that led to the imposition of draconian, enhanced mandatory sentences (like the one in this case) for “second or
successive” Section 924(c) convictions when the defendant had no prior conviction under that provision.
The amendment put an end to the absurdly long sentences resulting from a prosecutorial practice known
as “§ 924(c) stacking,” which, according to three Sentencing Commission reports over a span of fourteen
years, had been invoked by prosecutors for decades

7
in a manner that discriminated against Black men.
The amendment, titled a “Clarification of Section
924(c),” made clear that the law’s dramatically enhanced mandatory and consecutive sentences (20
years at the time of Petitioner’s sentencing; 25 years
today) would henceforth be recidivism-based enhancements, mandated only when Section 924(c)
convictions are obtained after a prior conviction under that statute has become final. Finally, the
amendment was made retroactive, but only partially
so: Congress directed that it be applicable to crimes
committed before the First Step Act was enacted, but
only if those defendants had not yet been sentenced.
The second is Section 603(b), which amended 18
U.S.C. § 3582(c)(1)(A), the sentence-reduction law
that has become known as the compassionate release
statute. The amendment removed the Bureau of
Prisons (the “BOP”) as the gatekeeper for such motions, and empowered defendants to make them directly, because the BOP had too infrequently opened
the gate, improperly curtailing the sentence reduction authority that Congress gave district courts.
See, e.g., DEP’T OF JUSTICE, OFFICE OF THE INSPECTOR
GEN., THE FEDERAL BUREAU OF PRISONS’ COMPASSIONATE RELEASE PROGRAM 11 (2013) (“The BOP does
not properly manage the compassionate release program, resulting in inmates who may be eligible candidates for release not being considered.”).1 The title
of Section 603(b) explained its purpose: it was aimed
at “Increasing the Use and Transparency of Compassionate Release. See 164 Cong. Rec. S7774 (daily ed.
DEP’T OF JUSTICE, OFFICE OF THE INSPECTOR GEN, THE FEDBUREAU OF PRISONS’ COMPASSIONATE RELEASE PROGRAM,
(2013), https://oig.justice.gov/reports/2013/e1306.pdf.

1

ERAL

8
Dec. 18, 2018) (statement of Sen. Cardin) (“[T]his
legislation includes several positive reforms from the
House-passed FIRST STEP Act. . . . The bill expands
compassionate release under the Second Chance Act
and expedites compassionate release applications.”).
As relevant here, Section 3582(c)(1)(A)(i) authorizes a sentence reduction when a district court, after
considering the factors set forth in 18 U.S.C.
§ 3553(a), finds that “extraordinary and compelling
reasons warrant such” relief and that “a reduction is
consistent with applicable policy statements issued
by the Sentencing Commission.” This latter requirement has its roots in the Sentencing Reform Act
of 1984, which directed the Sentencing Commission
to “describe what should be considered extraordinary
and compelling reasons for sentence reduction.”
28 U.S.C. § 994(t). Critically, in that same statute,
Congress demonstrated its ability to place particular
factors out of bounds. Specifically, it noted that
“[r]ehabilitation of the defendant alone shall not be
considered an extraordinary and compelling reason.”
Id. Nothing in Section 3582 itself, the First Step Act,
or any other statute otherwise limits the factors a
district court may consider in determining whether
extraordinary and compelling reasons warrant a sentence reduction.
In recent months, however, the Third, Sixth, and
Seventh Circuits have engrafted onto Section
3582(c)(1)(A)(i) just such a limitation; they have held
that district courts are prohibited from considering
the 2018 amendment to Section 924(c) in deciding
whether to reduce the draconian sentences produced
by stacking. Their rationale: Because Congress
chose not to make the amendment to Section 924(c)
categorically retroactive for all of the more than

9
2,500 inmates serving stacked Section 924(c) sentences, its dramatic revision to that sentencing regime cannot be considered in any such case, even on
a compassionate release motion.
Not only does this aggressive, judicially created
amendment to Section 3582(c)(1)(A)(i) find no support in the text of any relevant statute, but also it
goes far beyond Section 994(t)’s limitation on considering rehabilitation alone. These three courts of appeals have not merely held that the amended Section 924(c) sentencing regime cannot, standing alone,
warrant a reduction (as is the case for rehabilitation), they have directed that it cannot be considered
at all, even in combination with other relevant factors on a case-by-case basis. The result is perverse.
In considering whether to reduce sentences that often equate to life without parole, district judges in
those circuits must ignore that fact that both Congress and President Trump deemed § 924(c) stacking
so obviously excessive that they acted to make sure
no one in the same circumstances would ever again
be subjected to them. It is difficult to conjure a factor more relevant to determining whether an indefensible mandatory sentence should be reduced than
the fact that it is decades (sometimes centuries)
longer than the mandatory sentence that would be
applicable today, especially when the harshness of
that repudiated regime was visited upon defendants
in a racially discriminatory fashion. That is precisely the absurdity that the Fourth and Tenth Circuits
have pointed out in correctly holding that, when deciding whether extraordinary and compelling reasons
warrant a sentence reduction, a district court may
consider the amendment to Section 924(c).

10
This case offers an ideal vehicle to resolve the
circuit split on this issue. Both the district court and
the Seventh Circuit considered and addressed the
issue, and it is cleanly presented here. There are no
threshold issues that would preclude this Court from
reaching the question presented, and the district
court made it clear that Petitioner will walk out of
prison—more than thirty years before his projected
release date—if this threshold legal issue is resolved
in his favor. Pet. App. 35a (“If there were any legal
authority to do so, this court—this judge—would order [Petitioner] released from prison.”). Finally,
timely resolution of the conflict is particularly important because similar sentence reduction motions
are currently being filed in substantial numbers
around the country. This Court should grant certiorari and reverse the decision below.
STATEMENT
1. In 1984, Congress amended 18 U.S.C. §
924(c) as part of the Comprehensive Crime Control
Act. In relevant part, it revised Section 924(c) such
that “[i]n the case of his second or subsequent conviction under this subsection, such person shall be sentenced to imprisonment for ten years.” Comprehensive Crime Control Act of 1984, Pub.L. No. 98-473, §
1005(a), 98 Stat. 2138-2139. In 1988, Congress
amended Section 924(c) yet again by replacing the
10-year sentence for a “second or subsequent conviction” with a 20-year sentence. Pub.L. No. 100-690, §
6460, 102 Stat. 4373 (1988).
In 1993, this Court considered whether a defendant’s second through sixth convictions under Section 924(c), all obtained in the same proceeding as

11
his first, constituted “second or subsequent conviction[s]” within the meaning of that provision. Deal v.
United States, 508 U.S. 129 (1993). This Court answered the question in the affirmative. Five years
later, Congress increased the mandatory minimum
penalty for second or subsequent convictions under
Section 924(c) from 20 to 25 years. Pub. L. No. 105–
386, 112 Stat. 3469 (1998).
In the years that followed Deal, the practice of
§ 924(c) stacking attracted significant criticism. The
Judicial Conference of the United States urged Congress on multiple occasions to amend the draconian
penalties it produced. 2 On one such occasion, the
Chair of the Criminal Law Committee described Section 924(c) as one of the “most egregious mandatory
minimum provisions that produce the unfairest,
harshest, and most irrational results in the cases
sentenced under their provisions.”3
The Sentencing Commission also has repeatedly
reported that the enhanced sentences for “second or
successive” convictions under Section 924(c) were
disproportionately invoked by prosecutors against
Black defendants, and went so far on one of those
U.S. SENT’G COMM’N, REPORT TO THE CONGRESS: MANDATORY
MINIMUM PENALTIES IN THE FEDERAL CRIMINAL JUSTICE SYSTEM
(“MANDATORY MINIMUM REPORT”) 360–361, n.904 (2011),
https://www.ussc.gov/sites/default/files/pdf/news/congressionaltestimony-and-reports/mandatory-minimumpenalties/20111031-rtc-pdf/Chapter_12.pdf..
3 Mandatory Minimums and Unintended Consequences: Hearing on H.R. 2934, H.R. 834, and H.R. 1466 Before the Subcomm.
on Crime, Terrorism and Homeland Security of H. Comm. on
the Judiciary, 111th Cong. 60-61 (2009) (statement of Chief
Judge Julie E. Carnes on behalf of the Judicial Conference of
the United States).
2

12
occasions as to call upon Congress to “eliminate the
‘stacking’ requirement and amend 18 U.S.C. § 924(c)
to give the sentencing court discretion to impose sentences for multiple violations of section 924(c) concurrently with each other.” See MANDATORY MINIMUM REPORT at 368; see also U.S. SENT’G COMM’N.,
FIFTEEN YEARS OF GUIDELINES SENTENCING: AN ASSESSMENT OF HOW WELL THE FEDERAL CRIMINAL JUSTICE SYSTEM IS ACHIEVING THE GOALS OF SENTENCING
REFORM 90 (2004) (“If a sentencing rule has a disproportionate impact on a particular demographic
group, however unintentional, it raises special concerns about whether the rule is a necessary and effective means to achieve the purposes of sentencing.”); U.S. SENT’G COMM’N, MANDATORY MINIMUM
PENALTIES FOR FIREARMS OFFENSES IN THE FEDERAL
CRIMINAL JUSTICE SYSTEM 6 (2018) (“Black offenders
were convicted of a firearms offense carrying a mandatory minimum more often than any other racial
group. . . . The impact on Black offenders was even
more pronounced for offenders convicted either of
multiple counts under section 924(c) or offenses carrying a mandatory minimum penalty under the
Armed Career Criminal Act.”).
Finally, in 2018, the First Step Act put an end to
Deal’s interpretation of the law. Section 403, titled
“Clarification of Section 924(c),” re-wrote that provision so that the enhanced mandatory sentences are
mandated only by a Section 924(c) conviction that
occurs after a prior such conviction has become final.
The amendment was made retroactive, but only partially so: Congress directed that the new regime was
applicable to convictions under Section 924(c) based
on conduct committed before the date of enactment,

13
but only if the sentence on such a conviction had not
yet been imposed.
2. In the Comprehensive Crime Control Act of
1984, Congress abolished federal parole and created
a “completely restructured guidelines sentencing system.” S. Rep. No. 225, 98th Cong., 1st Sess. 52, 53
n.196 (1983). Having eliminated parole as a “second
look” at lengthy sentences, Congress recognized the
need for an alternative:
The Committee believes that there may be
unusual cases in which an eventual reduction in the length of a term of imprisonment
is justified by changed circumstances. These
would include cases of severe illness, cases in
which other extraordinary and compelling
circumstances justify a reduction of an unusually long sentence, and some cases in which
the sentencing guidelines for the offense of
which the defend[ant] was convicted have
been later amended to provide a shorter term
of imprisonment.
Id. at 55–56 (emphasis added). Put differently, the
statute replaced the Parole Commission’s opaque
review of every federal sentence with a much narrower judicial review of cases presenting “extraordinary and compelling reasons” for relief from unusually long prison terms. By lodging that authority in
federal district courts, this change kept “the sentencing power in the judiciary[,] where it belongs.” Id. at
52, 53 n.196, 121.
But the law also established a gatekeeper—the
authority could be exercised only upon a motion by
the Director of the BOP. Unsurprisingly, the BOP

14
too rarely exercised this power, leaving the sentence
reduction authority visited upon judges by Congress
dramatically underutilized. 4 In response, Congress
amended Section 3582(c)(1)(A) in Section 603 of the
First Step Act. Under the amended statute, defendants are permitted to present compassionate release
motions to the sentencing court on their own if the
BOP declines to make a motion on their behalf within 30 days of being asked to do so. 18 U.S.C.
§ 3582(c)(1)(A).
3. In May 1997, Petitioner and Ricky Anderson
committed two bank robberies and attempted a
third. No one was physically injured during the robberies, no guns were discharged, and the banks “lost
less than $10,000 in the three charged events.” Pet.
App. 35a. Petitioner only brandished a firearm during one of the three robberies.
In June 1997, Petitioner and Anderson were indicted on two counts of aggravated bank robbery, one
count of attempted aggravated bank robbery, and
one count of carrying a firearm in connection with a
crime of violence under 18 U.S.C. § 924(c). In August
of that year, Anderson agreed to plead guilty to all
four counts and cooperate against Petitioner. The
government then filed a superseding indictment
against Petitioner, adding two additional counts of
carrying a firearm in connection with a crime of violence under Section 924(c). Petitioner went to trial,
was convicted of all counts, and was sentenced to a
See, e.g., DEP’T OF JUSTICE, OFFICE OF THE INSPECTOR GENERAL, THE FEDERAL BUREAU OF PRISONS’ COMPASSIONATE RELEASE PROGRAM 11 (2013) (“The BOP does not properly manage

4

the compassionate release program, resulting in inmates who
may be eligible candidates for release not being considered.”),
https://oig.justice.gov/reports/2013/e1306.pdf.

15
total of 802 months—more than 66 years—
imprisonment. On Counts 1, 3, and 4 (the bank robbery counts), the district court imposed concurrent
terms of 262 months. On Count 2 (the first Section
924(c) count), the court imposed a mandatory, consecutive term of 60 months. On each of Counts 5 and
6 (the stacked Section 924(c) counts), the court imposed mandatory, consecutive terms of 240 months.
On October 15, 2020, after the district court denied his initial pro se motion for a sentence reduction, Petitioner asked Warden Angela Owens at FCI
Memphis to move for relief on his behalf. When
Warden Owens failed to respond, Petitioner again
moved in the district court for compassionate release
based upon a review of his individual circumstances,
including: (1) his age at the time of the offense conduct; (2) his rehabilitation and education while incarcerated; (3) his medical issues, which put him at
risk for COVID-19; (4) the mandatory sentence the
district court was forced to impose that amounted to
what is essentially a life sentence; (5) the substantial
prison term he had already served (more than 23
years); (6) the release of his equally culpable codefendant from prison almost a decade prior in January 2012; (7) the career offender enhancement he
received that would not apply today; and (8) the fact
that Congress has made clear that his excessive sentence based on § 924(c) stacking should never have
been imposed.
After briefing, the district court denied Petitioner’s motion, finding that the reasons put forth in
support of a sentence reduction—including the
amendment to the sentences mandated by 18 U.S.C.
§ 924(c)—were not “extraordinary and compelling.”

16
See Pet. App. 14a. Still, the district court also made
clear that it “would order compassionate release if it
had jurisdiction to do so,” and explained that “[i]f
there were any legal authority to do so, this court—
this judge—would order Mr. Watford released from
prison.” Pet. App. 35a.
The Seventh Circuit affirmed, applying its recent
precedent holding “that a reason for a sentence reduction under § 3582(c)(1)(A)(i) ‘cannot include,
whether alone or in combination with other factors,
consideration of the First Step Act’s amendment to
§ 924(c).’” Pet. App. 2a (quoting United States v.
Thacker, 4 F.4th 569, 576 (7th Cir. 2021)).
REASONS FOR GRANTING THE WRIT
This Court should grant certiorari to resolve the
circuit split concerning whether a district court may
consider the First Step Act’s amendment to Section 924(c) in determining whether a defendant sentenced under the pre-amendment regime has shown
“extraordinary and compelling reasons” warranting a
possible sentence reduction under 18 U.S.C.
§ 3582(c)(1)(A)(i).
This case meets all of the Court’s criteria for
granting certiorari. First, the question presented
concerns an intractable, acknowledged circuit split
on a recurring question of statutory interpretation
that only this Court can resolve. Second, the Seventh Circuit’s conclusion that a district court is prohibited from considering that a defendant is serving
a sentence decades longer than the one Congress believes is appropriate, is incorrect. The holdings of
the Third, Sixth, and Seventh Circuits cannot be reconciled with the plain text of Section 3582(c)(1)(A)(i),

17
and the limitation those holdings engraft onto the
law also undermines a clear purpose of that provision. Third, the question presented is important and
will profoundly affect a large number of defendants
who are serving indefensible sentences that current
law would not permit. Fourth, this case is an ideal
vehicle.
A. The Question Presented Concerns an Intractable, Acknowledged Circuit Split on
a Recurring Question Only This Court
Can Resolve.
Five courts of appeals have considered whether
the 2018 amendment to Section 924(c) can be considered in determining whether extraordinary and compelling reasons warrant a reduction in sentence pursuant to Section 3582(c)(1)(A)(i) where the defendant
was sentenced under the pre-amendment regime.
Those decisions have produced an active 3-2 circuit
split. This Court should grant review to resolve the
conflict.
1. Three Courts of Appeals Have Held
District Courts Cannot Consider the
First Step Act’s Changes to Section
924(c).
Three courts of appeals have held that a district
court is prohibited from considering the First Step
Act’s amendment to Section 924(c) in determining
whether “extraordinary and compelling reasons”
warrant a sentence reduction on a defendant-filed
compassionate release motion.

18
In United States v. Jarvis, a divided panel of the
Sixth Circuit affirmed the district court’s conclusion
that a defendant’s stacked, mandatory Section 924(c)
sentences that could not be imposed today cannot be
considered as grounds for a sentence reduction, even
in combination with other bases for relief. 999 F.3d
442, 442 (6th Cir. 2021). The court reasoned that a
contrary conclusion would render “useless” Congress’s decision that the amendment would not apply
to cases in which sentence had already been imposed
at the time of enactment. Id. at 443. The Sixth Circuit acknowledged a split with the Fourth and Tenth
Circuits, id. at 444 (“We appreciate that the Fourth
Circuit disagrees with us, and that the Tenth Circuit
disagrees in part with us.”), but concluded that the
applicable law “does not permit us to treat the First
Step Act’s non-retroactive amendments, whether by
themselves or together with other factors, as ‘extraordinary and compelling’ explanations for a sentencing reduction,” id. at 445.5
In Thacker, the Seventh Circuit reached the
same conclusion. 4 F.4th 569. There, the panel exThe majority acknowledged that a different panel of the Sixth
Circuit had reached the opposite result the month before in a
published opinion affirming a sentence reduction that was in
part based on Section 403 of the First Step Act. See id. at 445
(citing United States v. Owens, 996 F.3d 755 (6th Cir. 2021)).
The Jarvis majority concluded that Owens conflicted with an
earlier-decided case holding “that a non-retroactive First Step
Act amendment fails to amount to an ‘extraordinary and compelling’ explanation for a sentencing reduction.” Id. (citing
United States v. Tomes, 990 F.3d 500 (6th Cir. 2021)). But as
the Jarvis dissent correctly observed, “nothing in Tomes precludes a district court from considering a sentencing disparity
due to a statutory amendment along with other grounds for
release.” Id. at 450 (Clay, J., dissenting).

5

19
plained that “the discretionary authority conferred
by § 3582(c)(1)(A) . . . cannot be used to effect a sentencing reduction at odds with Congress’s express
determination embodied in § 403(b) of the First Step
Act that the amendment to § 924(c)’s sentencing
structure apply only prospectively.” Id. at 574. The
court also expressed “broader concerns with allowing
§ 3582(c)(1)(A) to serve as the authority for relief
from mandatory minimum sentences” based on
“principles of separation of powers.” Id. The court
acknowledged the circuit split on this question, observing that “courts have come to principled and
sometimes different conclusions as to whether the
change to § 924(c) can constitute an extraordinary
and compelling reason for compassionate release.”
Id. at 575; see also id. (“The Fourth Circuit, on the
one hand, takes the view that the sentencing disparity resulting from the anti-stacking amendment to §
924(c) may constitute an extraordinary and compelling reason for release.”).
And in United States v. Andrews, the Third Circuit adopted the same rule, concluding that “[t]he
nonretroactive changes to the § 924(c) mandatory
minimums . . . cannot be a basis for compassionate
release.” 12 F.4th 255, 261 (3d Cir. 2021). The Third
Circuit reasoned that “Congress specifically decided
that the changes to the § 924(c) mandatory minimums would not apply to people who had already
been sentenced,” declining to “construe Congress’s
nonretroactivety directive as simultaneously creating
an extraordinary and compelling reason for . . . release.” Id. The Third Circuit “join[ed] the Sixth and
Seventh Circuits,” and acknowledged a split with the
Tenth and Fourth Circuits. Id.

20
2. Two Courts of Appeals Have Held District Courts May Consider the First
Step Act’s Changes to Section 924(c).
Two courts of appeals have held, in clear conflict
with the Third, Sixth, and Seventh Circuits, that district courts may consider the disparity between the
mandatory sentences imposed and the mandatory
sentences applicable under current law in deciding
whether extraordinary and compelling reasons warrant a reduction.
The Fourth Circuit was the first to establish this
rule in United States v. McCoy, 981 F.3d 271 (4th
Cir. 2020). The defendants in that case had been
charged with multiple Section 924(c) counts and sentenced to between 35 and 53 years of imprisonment,
largely due to stacking. Id. at 274. Each defendant’s
motion for compassionate release relied heavily on
the severity of the sentences then mandated by Section 924(c) and the First Step Act’s fundamental
changes to those sentences, as well as his exemplary
conduct while incarcerated. Id. The district courts
granted each defendant a sentence reduction, and
the Fourth Circuit affirmed. Id. at 288. In so doing,
the panel held that district courts may treat “as ‘extraordinary and compelling reasons’ for compassionate release the severity of the defendants’ § 924(c)
sentences and the extent of the disparity between the
defendants’ sentences and those provided for under
the First Step Act.” Id. at 286. It further explained
that Congress’s decision “not to make § 403 of the
First Step Act categorically retroactive does not
mean that courts may not consider that legislative
change in conducting their individualized reviews of
motions for compassionate release.” Id. The court

21
found “nothing inconsistent about Congress’s paired
First Step Act judgments: that ‘not all defendants
convicted under § 924(c) should receive new sentences,’ but that the courts should be empowered to ‘relieve some defendants of those sentences on a caseby-case basis.’” Id. at 287 (citation omitted).
In similar circumstances, and based on the same
reasoning, the Tenth Circuit affirmed a sentence reduction in United States v. Maumau. 993 F.3d 821
(10th Cir. 2021). The court explained that district
courts “have the authority to determine for themselves what constitutes ‘extraordinary and compelling reasons,’” including “the ‘incredible’ length of []
stacked mandatory sentences under § 924(c); the
First Step Act’s elimination of sentence-stacking under § 924(c); and the fact that [the defendant], if sentenced today, . . . would not be subject to such a long
term of imprisonment.” Id. at 834, 837 (citation
omitted).
3. The Circuit Conflict Will Not Resolve
Without a Decision From This Court.
This split among the circuits is entrenched and
unlikely to resolve without action by this Court. The
Third, Sixth, and Seventh Circuits have explicitly
recognized the circuit split. See Andrews, 12 F.4th at
261 (“We join the Sixth and Seventh Circuits in
reaching this conclusion.”); Jarvis, 999 F.3d at 444
(“We appreciate that the Fourth Circuit disagrees
with us, and that the Tenth Circuit disagrees in part
with us.”); Thacker, 4 F.4th at 575 (“[W]e are not the
only court to deal with this issue. In fact, it has come
up across the country, and courts have come to principled and sometimes different conclusions as to

22
whether the change to § 924(c) can constitute an extraordinary and compelling reason for compassionate
release.”). The Sixth Circuit recently denied rehearing en banc, see Order, United States v. Jarvis, No.
20-3912 (6th Cir. Sep. 8, 2021), ECF No. 41, and the
Seventh Circuit stated in Thacker that “[n]o judge in
active service requested to hear [the] case en banc,” 4
F.4th at 576. There is no realistic prospect that the
circuit conflict will resolve without the Court’s intervention, and thus the issue need not percolate further. Five courts of appeals have addressed the
question presented, and the arguments on both sides
have been fully aired.
Finally, this Court’s review is especially necessary because the holdings of the Third, Sixth, and
Seventh Circuits undermine the explicit goal of Section 603 of the First Step Act to increase the use of
compassionate release. Leaving this split unresolved
will exacerbate one of the very problems the First
Step Act was designed to correct, and will cause defendants within the Third, Sixth, and Seventh Circuits to be unable to obtain sentence reductions that
similarly situated defendants in the Fourth and
Tenth Circuits can receive.
B. The Decision Below is Incorrect.
The Seventh Circuit’s decision in this case fundamentally misunderstands the nature and purpose
of Section 3582(c)(1)(A) and the scope of the authority Congress granted to district courts under that
framework. Relying on its prior decision in Thacker,
the court summarily affirmed the district court’s denial of Petitioner’s compassionate release motion and
reiterated that Congress’s clarification of the penalty

23
scheme in Section 924(c) cannot be considered, either
alone or in conjunction with other reasons, as the
basis for a sentence reduction. That holding is plainly incorrect.
First, it places out of bounds one of the most “extraordinary and compelling reasons” one could imagine when it comes to deciding whether circumstances
“justify a reduction of an unusually long sentence.”
S. Rep. No. 225, 98th Cong., 1st Sess. 55–56, 121
(1983). As the Fourth Circuit correctly pointed out
in McCoy, the First Step Act’s amendment to Section 924(c) is “not just any sentencing change, but an
exceptionally dramatic one” because it eliminated a
misuse of Section 924(c)’s recidivist enhancements
that for decades produced unusually cruel sentences
that were decades longer “than what Congress has
now deemed an adequate punishment for comparable
. . . conduct.” 981 F.3d at 285 (quoting United States
v. Redd, 444 F. Supp. 3d 717, 723 (E.D. Va. 2020)).
In other words, it is precisely the type of change in
the law that should weigh heavily in a judicial “second look” under Section 3582(c)(1)(A).
Second, the Seventh Circuit’s holding—“that a
reason
for
a
sentence
reduction
under
§ 3582(c)(1)(A)(i) ‘cannot include, whether alone or in
combination with other factors, consideration of the
First Step Act’s Amendment to § 924(c),’” Pet. App.
2a (quoting Thacker, 4 F.4th at 576))—arrogated to
the court a power only Congress possesses. The text
of the relevant statutes provides no support for the
decision to place this particular factor out of bounds.
The error is placed in even sharper relief by the fact
that the legislative framework shows that Congress
knows well how to do exactly that; 28 U.S.C. § 994(t)
specifically provides that “[r]ehabilitation of the de-

24
fendant alone shall not be considered an extraordinary and compelling reason.” The Seventh Circuit
not only erred by adding another factor to the out-ofbounds list, but also exacerbated that error by extending it beyond any sensible purpose. Rather than
merely holding that the amendment to Section 924(c)
cannot, standing alone, be the basis of a sentence
reduction, the court held that a district court cannot
consider at all the fact that Congress deemed the
sentences previously mandated by that provision to
be so obviously excessive they will never again be
imposed.
Third, the ruling below precludes consideration
of a number of related bases for sentence reductions
that are “extraordinary and compelling.” For example, it ignores the grossly disproportionate nature of
the sentences that the old Section 924(c) regime
mandated as compared to the average sentences imposed for crimes like murder.6 It ignores the racially
disparate deployment of these draconian provisions
by prosecutors for decades, a problem heralded by
the Sentencing Commission repeatedly until Section
924(c) was amended in 2018. 7 Under the Seventh
From 2015 to 2020, the average federal sentence for murder
was 264 months. See U.S. SENT’G COMM’N, INTERACTIVE DATA
ANALYZER, https://ida.ussc.gov/analytics/saw.dll?Dashboard; see
also, e.g., United States v. Decator, 452 F. Supp. 3d 320, 326 (D.
Md. 2020) (granting release and noting that defendant’s 633month sentence is “roughly twice as long as federal sentences
imposed today for murder”).
7 See U.S. SENT’G COMM’N, FIFTEEN YEARS OF GUIDELINES SENhttp://www.ussc.gov/sites/default
TENCING 90, 131 (2004),
/files/pdf/research-and-publications/research-projects-andsurveys/miscellaneous/15-year-study/15_year_study_full.pdf;
MANDATORY
MINIMUM
REPORT
at
ch.
9
http://www.ussc.gov/research/congressional-reports/
20116

25
Circuit’s rationale, these entirely valid bases for a
sentence reduction are similarly off limits. Only
Congress has the authority to do that.
The lower court’s judicial amendment to Section
3582(c)(1)(A)(i) was impermissible, and that is
enough to require reversal. In addition, its rationale
was wrong. The Seventh Circuit’s decision was
based on its view that allowing district judges to consider a dramatic legislative change no one could truly
ignore would be “at odds with Congress’s express determination embodied in § 403(b) of the First Step
Act that the amendment to § 924(c)’s sentencing
structure apply only prospectively.” See Thacker, 4
F. 4th at 574. But there is no sense in which allowing courts to consider the prospective outlawing of
onerous mandatory sentences is “at odds” with a decision not to make the change categorically retroactive to every prior case. The same Congress that
elected against full retroactivity used the same statute to open a different (if narrower) window for potential relief by amending Section 3582(c)(1)(A) to
afford defendants direct access to courts to seek sentence reductions based on extraordinary and compelling reasons like this change. There is “nothing inconsistent about Congress’s paired First Step Act
judgments: that ‘not all defendants convicted under
§ 924(c) should receive new sentences,’ but that the
courts should be empowered to ‘relieve some defendants of those sentences on a case-by-case basis.’”
report-congress-mandatory-minimum-penalties-federalcriminal-justice-system; U.S. SENT’G COMM’N, MANDATORY MINIMUM PENALTIES FOR FIREARMS OFFENSES IN THE FEDERAL
CRIMINAL JUSTICE SYSTEM 24–25 (2018), https://www.ussc.gov/
sites/default/files/pdf/research-and-publications/researchpublications/2018/20180315_Firearms-Mand-Min.pdf.

26
McCoy, 981 F.3d at 287 (citation omitted); see also
Maumau, 993 F. 3d at 837 (affirming compassionate
release based on district court’s “individualized review of all the circumstances,” including “‘the First
Step Act’s elimination of sentence-stacking under
§ 924(c)’”) (citation omitted).
For the foregoing reasons, the approach adopted
by the Fourth and the Tenth Circuits is the only one
consistent with the text and purpose of Section 3582(c)(1)(A). As those courts have described,
there is nothing in the statutory text that supports
the crabbed view of the breadth of a district court’s
discretion adopted by the Third, Sixth, and Seventh
Circuits, especially in the context of a statutory
scheme that was created precisely to allow judges to
take a second look at unusually long sentences after
some time had passed. Just as nothing in the statute
compels a sentence reduction in every case involving
§ 924(c) stacking under the old regime, there is no
textual basis for precluding a reduction based, at
least in part, on those seismic, and long overdue,
changes to the law.
C. The Issue is Important and Recurring.
The question of whether a district court may consider the 2018 amendment to Section 924(c) in determining whether “extraordinary and compelling
reasons” warrant the reduction of an unusually long
sentence imposed based on the pre-amendment regime is an important and recurring question of federal law. District courts across the country have
granted a large number of sentence reductions based
in part on the unfairness of lengthy sentences that

27
would be substantially shorter today, and new motions are being filed every day.
Among the harms caused by the holding below,
and similar ones in the Third and Sixth Circuits, is
that the outcome of motions based on virtually indistinguishable grounds, stemming from essentially
identical conduct, now depends entirely on the circuit
in which a defendant was convicted. In the Fourth
and Tenth Circuits, district courts are reducing these
indefensible sentences by decades or centuries, and
defendants are being released from prison. In the
Third, Sixth, and Seventh Circuits, defendants like
Petitioner will die in prison instead, or be released at
extremely advanced ages. These unwarranted disparities in outcomes across circuits warrant review of
the issue presented by this Court.
D. This Case Presents an Ideal Vehicle.
This case squarely and cleanly presents the issue
that has divided the circuit courts. It is therefore an
ideal vehicle for resolving the question presented.
Petitioner raised the question presented
throughout the proceedings below. See Pet. App. 2a,
11a. He argued in the district court that a sentence
reduction was appropriate due to the severity of his
Section 924(c) sentences and the disparity between
the mandatory sentence imposed and one he would
face today, and the district court squarely decided
the issue in the government’s favor. See Pet. App.
14a–15a. Petitioner raised the issue again in the
Seventh Circuit, which also squarely decided it in the
government’s favor. Pet. App. 2a (“But we have since
confirmed that a reason for a sentence reduction under § 3582(c)(1)(A)(i) ‘cannot include, whether alone

28
or in combination with other factors, consideration of
the First Step Act’s amendment to § 924(c).’”) (quoting Thacker, 4 F.4th at 576).
If Petitioner prevails in this Court, he will likely
be released on remand pursuant to a sentence reduction order that will give him back more than three
decades of his life. Even as it denied the motion, the
district court criticized Petitioner’s sentence as “an
example of the Draconian nature of the sentencing
law of that age, and a manifestly unreasonable sentence by today’s standards.” Pet. App. 35a. The
court stated that if Congress’s changes to Section 924(c) could be considered an extraordinary and
compelling reason, it “would order compassionate
release.” Pet. App. 6a; see also Pet. App. 35a (“If
there were any legal authority to do so, this court—
this judge—would order Mr. Watford released from
prison.”).
Timely resolution of the conflict is important.
Compassionate release motions are being filed and
decided on a seemingly daily basis in the district
courts. While other petitions presenting this issue
may be filed in the future, there is no reason for this
Court to delay—and every reason for it to move
swiftly—to resolve this circuit split. The longer this
Court waits, the more judicial resources will be
wasted if the Court rejects the Seventh Circuit’s position. And defendants like Petitioner, whose motions for a sentence reduction have been denied pursuant to the flawed rubric established by the court
below and in two other circuits, will continue to serve
excessively long prison terms.

29
CONCLUSION
For the reasons set forth above, the petition for a
writ of certiorari should be granted.
Respectfully submitted,
DAVID A. O’NEIL
DEBEVOISE & PLIMPTON LLP
801 Pennsylvania Ave. N.W.
Washington, D.C. 20004
JOHN GLEESON
Counsel of Record
MARISA R. TANEY
MATTHEW SPECHT
DEBEVOISE & PLIMPTON LLP
919 Third Avenue
New York, NY 10022
(212) 909-6000
jgleeson@debevoise.com
October 2021

APPENDIX

1a
[UNPUBLISHED]
IN THE UNITED STATES COURT OF
APPEALS FOR THE SEVENTH CIRCUIT
CHICAGO, ILLINOIS 60604
No. 21-1361
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
JOHN J. WATFORD,
Defendant - Appellant.
_____________________
Appeal from the United States District Court for the
Northern District of Indiana, South Bend Division.
No. 3:97-cr-26(2) RLM
_____________________
Submitted July 26, 2021
Decided August 2, 2021
Before FRANK H. EASTERBROOK, DIANE P.
WOOD and MICHAEL Y. SCUDDER, Circuit
Judges.
ROBERT L. MILLER, JR., Judge.

2a
ORDER
John Watford appeals the denial of his motion
seeking compassionate release based on an
amendment in the First Step Act of 2018 limiting the
circumstances in which enhanced sentences may be
imposed for multiple violations of 18 U.S.C. § 924(c).
See Pub. L. No. 115-391, § 403, 132 Stat. 5194, 5221–
22. This amendment would hypothetically have
reduced Watford’s sentence for his three § 924(c)
convictions from 45 years’ imprisonment to 15, but
the change is not retroactive. Id. Watford
nevertheless argued that the amendment and his
personal
characteristics
were
together
“extraordinary and compelling reasons” for a reduced
sentence under 18 U.S.C. § 3582(c)(1)(A)(i). The
district court concluded that it lacked the authority
to grant compassionate release based on the
amendment.
Watford has moved twice for summary reversal,
suggesting the district judge’s decision was contrary
to our precedent. But we have since confirmed that a
reason
for
a
sentence
reduction
under
§ 3582(c)(1)(A)(i) “cannot include, whether alone or in
combination with other factors, consideration of the
First Step Act's amendment to § 924(c).” United
States v. Thacker, No. 20-2943, 2021 WL 2979530, at
*6 (7th Cir. July 15, 2021). The government has thus
suggested
summary
affirmance
is
instead
appropriate.
We agree with the government. Watford argues
that Thacker does not control because he did not rely
solely on the amendment, but we also precluded
combining the amendment with other factors. The

3a
district judge could grant Watford’s motion only if his
other reasons were “extraordinary and compelling”
independent of the amendment. They were not.
Watford pointed to his age at the time of the offense,
the sheer length of time he has served and will serve,
and his codefendant’s much shorter sentence. These
factors are no reason to reduce a sentence because
they were known at the time it was imposed. He
otherwise relies on his rehabilitation while in prison.
But even assuming rehabilitation can support
compassionate release in the abstract, we conclude it
did not do so here. The district judge’s opinion makes
clear that he considered Watford’s efforts to be
commendable but not extraordinary. The judge noted
that Watford had multiple significant infractions
while in prison, even if none in the last decade. He
weighed this history against Watford’s efforts to gain
educational and job skills but could say only that
Watford “appears to pose a lower than average risk
of crime today.” That conclusion was not an abuse of
discretion.
Accordingly, the motion for summary reversal is
DENIED and the district court’s judgment is
summarily AFFIRMED.

4a
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF INDIANA
SOUTH BEND DIVISION
UNITED STATES OF
AMERICA,

)
)
)
Plaintiff,
)
)
vs.
) CAUSE NUMBER
) 3:97-CR-26(2) RLM
)
JOHN JOSE WATFORD )
)
)
Defendant.
)
OPINION AND ORDER DENYING
COMPASSIONATE RELEASE
This is John Watford's second motion for
compassionate release. The court denied his first,
understanding that it sought benefit of the First Step
Act's retroactivity provisions. [Doc. No. 295]. This
motion seeks release under the First Step Act’s
provision that an inmate, not just the Bureau of
Prisons, can seek compassionate release. To win
compassionate release, an inmate must first show
that (1) he has exhausted his administrative options
within the Bureau of Prisons, and (2) extraordinary
and compelling reasons support compassionate
release. If he makes such a showing, the court has
discretion, after considering the statutory sentencing

5a
factors in 18 U.S.C. § 3553(a), to order the inmate's
release.
Mr.
Watford
contends
that
the
sheer
unreasonableness of his sentence (when evaluated by
modern standards) amounts to a sufficient
extraordinary and compelling reason. This court
reads the statute differently. The bulk of Mr.
Watford's sentence (45 years) consists of sentences
under 18 U.S.C. § 924(c) that were “stacked,”
meaning each the sentence on one count lengthened
the sentences on the others. While the First Step Act
clarified the proper way of dealing with multiple
counts of conviction under § 924(c), section 403(b) of
the Act specified that the clarification didn't apply
retroactively to defendants like Mr. Watford. As this
court reads the First Step Act, a court can't
effectively convert the non-retroactivity provision
into an extraordinary ground for compassionate
release, even if yesterday’s way of applying § 924(c)
produced a manifestly unreasonable sentence by
today's standards. Mr. Watford also cited his health
and the COVID-19 pandemic as grounds for
compassionate release, but he doesn't have any
conditions that place him at greater risk than other
inmates.
Our court of appeals hasn't decided whether a
sentence’s unreasonableness can alone amount to
grounds for compassionate release, and might
disagree with this reading of the First Step Act; some
other circuit courts read the law as Mr. Watford
does. Given that possibility, this opinion goes on to
evaluate the statutory sentencing factors, and to
conclude that while Mr. Watford's 802-month
sentence was mandatory at the time of sentencing, it

6a
is extraordinarily unreasonable today. This court
would order compassionate release if it had
jurisdiction to do so.
I. FACTS
John Watford, now aged forty-eight, is serving an
802-month sentence at the Federal Correctional
Institution in Memphis, Tennessee. He was convicted
of three counts of aggravated bank robbery, which
accounted for 262 months of his sentence, and three
counts of carrying a firearm in furtherance of a crime
of violence under 18 U.S.C. § 924(c), which produced
the remaining 540 months of his sentence.
A little before 11:00 a.m. on May 2, 1997, Mr.
Watford and Ricky Anderson entered a Sobieski
Federal Savings and Loan branch in South Bend.
Mr. Watford went to the teller with a plastic grocery
bag while Mr. Anderson waited at the door and
ordered the tellers to put money (but no dye packs)
in the bag. Mr. Anderson displayed the only handgun
the tellers saw. The robbers fled with just under
7,000 federally insured dollars.
Mr. Watford and Mr. Anderson returned to the
same Sobieski Federal branch two and a half weeks
later. This time each had and displayed a handgun,
and each approached the tellers, telling them to give
them money with no dye packs. They took a little
over $2,000.00.
They tried to rob the Elcose Federal Credit Union
in Elkhart, Indiana, the next day. Mr. Anderson had
a handgun. They left with nothing.
Mr. Watford and Mr. Anderson didn't limit their
activity to the Northern District of Indiana. Two
days before their first Sobieski robbery, they robbed

7a
an Indianapolis branch of the National Bank of
Detroit. Mr. Anderson was armed, and they left with
a little over $1,700.00. A week after the attempted
Elcose robbery, they robbed the Star Financial Bank
in Anderson and stole about $20,000. Both men
might have been armed.
Mr. Watford has moved for compassionate release
under 18 U.S.C. § 3582(c)(1)(A). The government
opposes his motion.
A court considering a motion for compassionate
release under 18 U.S.C. § 3582(c)(1)(A) must decide
whether the movant has exhausted his remedies
within the Bureau of Prisons, 18 U.S.C.
§ 3582(c)(1)(A), decide whether “extraordinary and
compelling reasons” warrant the relief sought, 18
U.S.C. § 3582(c)(1)(A)(i), and consider the sentencing
factors set forth in 18 U.S.C. § 3553(a)(1)(A)(iii).
Until the Sentencing Commission updates the
pertinent application notes to include prisonerinitiated applications, district judges must apply the
statutory criteria of extraordinary and compelling
reasons. United States v. Gunn, 980 F.3d 1178 (7th
Cir. 2020).
II. EXHAUSTION
A petitioner for compassionate release must first
exhaust his remedies within the Bureau of Prisons.
See United States v. Sanford, 2021 WL 236622 (7th
Cir. Jan. 25, 2021). Mr. Watford made his
compassionate release request to the warden of his
institution on October 15, 2020, and the warden
didn't respond within thirty days, so Mr. Watford has
exhausted his administrative remedies for purposes
of a motion for compassionate release.

8a
III. EXTRAORDINARY AND COMPELLING
REASONS
A. THE APPLICABLE LAW
Mr. Watford and the government disagree about
what can or must be shown to satisfy the
requirement of extraordinary and compelling reasons
for compassionate release. Mr. Watford maintains
that his 1998 sentence is unreasonable when seen
through the lenses of 2021 sentencing law, and that
the unreasonableness of his sentence can constitute
an extraordinary and compelling reason for
compassionate release. The government contends
that the application notes to U.S.S.G. § 1B1.13 define
extraordinary and compelling reasons. Neither side
agrees with the other.
1. THE GOVERNMENT'S ARGUMENT:
APPLICATION NOTES ARE LIMITING
The
government
maintains
its
position,
apparently to preserve the issue for appeal, that the
application notes to U.S.S.G. § 1B1.13 contain the
only permissible definition of extraordinary and
compelling reasons. Section 3582(c) of Title 18 limits
a court's power to modify a sentence to three
situations:
x when the Sentencing Commission has reduced
a sentencing range and made its amendment
retroactive, 18 U.S.C. § 3582(c)(2);
x when allowed by a statute or Fed. R. Crim. P.
35, 18 U.S.C. § 3582(c)(1)(B); and
x when the court finds that extraordinary and
compelling reasons warrant a reduction, “and

9a
that such a reduction is consistent with
applicable policy statements issued by the
Sentencing Commission . . . .” 18 U.S.C.
§ 3582(c)(1)(A).
The
only
policy
statements
addressing
compassionate release are those accompanying
U.S.S.G. § 1B.13, the government's argument goes,
so a compassionate release order can issue only if it
consistent with those policy statements.
The government cites several cases in which
circuit and district courts agreed with that position,
but district courts in this circuit must reject the
government’s position. In United States v. Gunn, 980
F.3d 1178 (7th Cir. 2020), our court of appeals
recognized that while the Sentencing Commission
has issued policy statements to address motions or
determinations by the Director of the Bureau of
Prisons, the First Step Act authorized—for the first
time—prisoners to file compassionate release
motions with the court. The policy statement in
U.S.S.G § 1B1.13 is self-limiting because it begins
with “Upon motion of the Director of the Bureau of
Prisons . . . .” Having lacked a quorum for the last
few years, the Sentencing Commission hasn't issued
any policy statement to address the meaning of
extraordinary and compelling when a prisoner
makes the motion.
When dealing with an inmate-generated motion
for compassionate release, district courts in this
circuit “must operate under the statutory criteria—
extraordinary and compelling reasons—subject to
deferential appellate review.” United States v. Gunn,
980 F.3d at 1180.

10a
The Gunn holding undercuts the value of the
government's cited case law. For example, the Court
of Appeals for the Tenth Circuit decided in United
States v. Saldana, that the district court should have
dismissed for want of jurisdiction a compassionate
release petition based on rehabilitation and changes
in sentencing law “[b]ecause Mr. Saldana is unable
to show that he satisfied 'one of the specific
categories authorized by section 3582(c) . . . .’” 807
Fed. Appx. 816, 820 (10th Cir. 2020) (quoting United
States v. Brown, 556 F.3d 1108, 1113 (10th Circuit
2019)). The Gunn court held that other paths are
available to a petitioner.
The district court's holding in United States v.
Dodd flowed from its understanding that “[t]he
Commission's policy statements . . . are binding
concerning what should be considered extraordinary
and compelling reasons for sentence reduction under
18 U.S.C. § 3582(c)(1)(A).” 471 F. Supp. 3d 750, 754
(E.D. Tex. 2020). Gunn holds otherwise. The holding
in United States v. Brown was based on the district
court's conclusion that, “The Court agrees with the
reasoning of those courts that have found that
applying the policy statement . . . to motions filed by
defendants, just as it applies § 1B1.13 to motions
filed by the BOP, is proper absent any authoritative
indication to the contrary.” 2020 WL 3511584 at *5
(E.D. Tenn. June 29, 2020). Again, Gunn requires a
different approach.
The court agrees with Mr. Watford that the
application note to U.S.S.G. § 1B1.13 doesn't provide
the complete definition of extraordinary and
compelling reasons as the First Step Act uses that
phrase in 18 U.S.C. § 3582(c)(1)(A).

11a
2. MR. WATFORD'S ARGUMENT: SENTENCE
UNREASONABLENESS AS GROUNDS FOR
RELEASE
Mr. Watford argues, with the government
disagreeing, that a sentence's unreasonableness can
itself be an extraordinary and compelling reason for
purposes of compassionate release. His argument
about unreasonableness flows from § 403(b) of the
First Step Act, which clarified the law.
When Mr. Watford was sentenced in 1998, a
person’s first conviction under § 924(c) required a
sentence of at least five years, which had to be
consecutive to any other sentence. That's true today,
too. The minimum penalty increased from five years
to twenty years (now twenty-five) for each
subsequent offense. Mr. Watford was convicted of
three separate armed robberies in the spring of 1997;
each robbery count carried a § 924(c) count. In 1998,
the law was understood to mean that a “second or
subsequent offense” was one committed after the
first. So the § 924(c) count relating to the first
robbery for which Mr. Watford was convicted (the
May 2, 1997, robbery of the Sobieski Savings and
Loan) required at least a five-year sentence, which
had to be served consecutively to all other sentences.
The § 924(c) count on the second charged and
convicted robbery (the May 19, 1997, robbery of the
Sobieski Savings and Loan) amounted to the second
offense, requiring at least twenty more years to be
added to the other sentences. And the § 924(c) count
on the third charged attempted robbery (the May 20,
1997, robbery of the Elcose Federal Credit Union)
amounted to a third offense, requiring still another
twenty years (at least) to be added to the other

12a
sentences. See United States v. Bennett, 908 F.2d
189, 194 (7th Cir. 1990). So under the law as it was
understood in 1998, the three convictions under
§ 924(c) added forty-five years to Mr. Watford's
sentence,—two-thirds of Mr. Watford's sentence.
Section 403 of the First Step Act clarified
Congressional intent. Congress said that by
“subsequent offense,” it meant offenses committed
after another § 924(c) conviction. One court described
the change as “an extraordinary development in
American criminal jurisprudence. A modern-day
dark ages—a period of prosecutorial 924(c) windfall
courts themselves were powerless to prevent—had
come to an end.” United States v. Haynes, 456 F.
Supp. 3d at 502. Congress specifically made its
clarification non-retroactive, so § 403(b) of the First
Step Act doesn't directly benefit Mr. Watford.
Today's courts focus on the dates of the convictions
and not the dates of the crimes. Had that been the
law when Mr. Watford was sentenced in 1998, the
court would have had to impose three five-year
terms, consecutively to each other as well as to the
bank robbery sentences—fifteen years instead of
forty-five.
Mr. Watford contends that application of the preFirst Step Act understanding produced a sentence
that is unreasonable today. That unreasonableness,
he contends, constitutes an extraordinary and
compelling reason for compassionate release.
The Fourth Circuit Court of Appeals agrees with
Mr. Watford. In United States v. McCoy, 981 F.3d
271 (4th Cir. 2020), the court upheld compassionate
release orders from two district courts based
exclusively
on
the
unreasonableness
(by

13a
contemporary standards) of the sentences and the
circumstances surrounding those circumstances.
Sentences under § 924(c) had greatly increased both
of the sentences at issue. The court of appeals
decided that since no policy statement limited the
scope of possible reasons, “district courts are
‘empowered . . . to consider any extraordinary and
compelling reason for release that a defendant might
raise.’” Id. at 284 (quoting United States v. Zullo, 976
F.3d 228, 230 (2nd Cir. 2020)).
Mr. Watford also cites United States v. Haynes,
456 F. Supp. 3d 496 (E.D.N.Y. 2020), which offers
facts very similar to this case. Kevin Haynes was
sentenced in 1994 to 558 months' imprisonment. The
sentence included 480 months—forty years—on
second and third § 924(c) counts that were added
after Haynes rejected a plea offer (Mr. Watford's
submission reports the same chronology, and
assumes the same motivation, in his case). The
government declined the district court's invitation to
trigger a non-First Step Act process that would allow
Mr. Haynes to be resentenced in accordance with the
First Step Act's non-retroactive clarification that
multiple § 924(c) counts in one indictment weren't to
be deemed “second or subsequent” for an offender
who had never been convicted of the crime before.
Anticipating the eventual reasoning of the Fourth
Circuit in United States v. McCoy, the Haynes court
decided that the unreasonableness of the original
sentence is enough to constitute an extraordinary
and compelling reason to grant compassionate
release.
This court isn’t persuaded that the approach
taken in the McCoy and Haynes cases works in this

14a
circuit. Our court of appeals directed district courts
to apply the extraordinary and compelling reasons
test as statutory criteria. United States v. Gunn, 980
F.3d at 1180. With no Sentencing Commission policy
statements to guide the district courts in deciding
what amounts to an adequate reason in a case
brought by an inmate, courts must consider the
entire statute in defining extraordinary and
compelling.
The First Step Act:
x gave prisoners the right to ask courts for
compassionate release, and
x clarified that § 924(c) convictions weren't to be
stacked as courts had been doing, but
x provided that the anti-stacking provision
wouldn't be retroactive,
and so provided no basis for revisiting a sentence
under 18 U.S.C. § 3582(c)(2) (providing that a
sentence can be modified when the Sentencing
Commission makes an amendment retroactive). Mr.
Watford's reading of the First Step Act would dilute
the meaning of the non-retroactivity provision in
§ 403(b) of the First Step Act: it would make
everything potentially retroactive at the sentencing
court's discretion.
Further, it seems challenging to construct an
explanation of how a sentence that complies with the
First Step Act, but doesn’t apply the anti-stacking
provision retroactively, can be called extraordinary
in any ordinary sense of the word. Many inmates
have stacked § 924(c) sentences that were imposed
before the First Step Act, and the non-retroactivity
provision denies relief to all of them. And if Congress
considered a sentence based on stacked § 924(c)

15a
counts to be a compelling reason for compassionate
release, it's hard to imagine why it made § 403(b)
non-retroactive.
This court respectfully disagrees with the McCoy
and Haynes courts. It's too great a reach to hold that
a sentence's unreasonableness amounts to an
extraordinary
and
compelling
reason
for
compassionate release if that unreasonableness flows
entirely from stacked sentences under § 924(c).
Still, the reasonableness of a sentence might play
a part in deciding a motion for compassionate
release. Compassionate release requires findings of
exhaustion and extraordinary or compelling reasons;
without those findings, the court has no authority to
order compassionate release. Findings of exhaustion
and extraordinary or compelling reasons give a court
discretion to order compassionate release, but the
statute also requires the court to consider the
consistency of compassionate release with the
sentencing factors in 18 U.S.C. § 3553(a); significant
changes in sentencing law inevitably come into play
at that point.
B. EXTRAORDINARY AND COMPELLING
REASONS: MR. WATFORD'S RISKS OF
COVID-19
Nothing in the First Step Act limits a
compassionate release motion to circumstances
relating to COVID-19, but the risk of COVID-19 is
the only factor other than his sentence’s
unreasonableness to which Mr. Watford points. Mr.
Watford’s submission doesn’t show that he faces
greater risks from COVID-19 that most other
inmates do.

16a
The Bureau of Prisons has undertaken impressive
efforts to keep inmates and staff safe from the
coronavirus despite the inability of any prison to
impose social distancing or alcohol-based hand
sanitizer recommendations. The Bureau of Prisons'
efforts have been more successful in some
institutions than in others, but the recent national
surge in cases hit federal penal institutions
particularly hard. According to statistics posted by
the Bureau of Prisons, 897 inmates at FCI Memphis
have been tested for COVID-19, with 384, or 43
percent, testing positive. 1 FCI Memphis's reported
population is 1,027. 2 Miami-Dade County, Florida,
where Mr. Watford proposes to live with his mother,
recently reported that well under 10 percent of
people tested are showing positive for COVID-19.3
Mr. Watford points to his history of asthma, his
obesity, and medical emergencies he suffered in
December 2018 and August 2020.
The Centers for Disease Control have posted lists
of conditions that can increase a person's risk of
severe illness or death from COVID-19.4 Because our
https://www.bop.gov/coronavirus/index.jsp
February 11, 2021).

1

(last

accessed

https://www.bop.gov/locations/institutions/mem/index.jsp
(last accessed February 9, 2021).

2

https://covidactnow.org/us/floridafl/county/miami_dade_county/?s=1592532
February 11, 2021).

3

(last

accessed

4
https://www.cdc.gov/coronavirus/2019-ncov/need-extraprecautions/people-with-medical-conditions.html (last accessed
February 8, 2021).

17a
understanding of COVID-19 is incomplete, the CDC
has one list of conditions known to increase the risk
of severe illness from COVID-19 and another list of
conditions that might place a person at increased
risk before severe illness.
Mr. Watford has a body mass index of 35.
Depending on its severity, the CDC lists obesity as a
factor that is known to, or might, increase a person’s
risk from COVID-19. But obesity doesn’t much set
Mr. Watford apart from the rest of the nation’s
prisoners: almost three quarters of federal and state
prison inmates are overweight, obese, or morbidly
obese.5
Mr. Watford went to the medical staff at the
United States Prison in McCreary, Kentucky on
December 4, 2018, when he was light headed, dizzy,
and visibly sweating. The medical personnel told Mr.
Watford “he had [no] objective data pointing to any
major issues but if symptoms persist he could sign
up for sick call.” [Doc. No. 306-1, at 49]. Mr. Watford
retuned to the medical personnel eight days later
with breathing issues and a racing heart beat. The
medical personnel determined he was suffering from
tachycardia and asthma; they told him to rest and
use his inhaler as needed.
Mr. Watford returned to the medical personnel
two days later with breathing and heart problems.
The medical staff thought he might be suffering a
heart attack, and sent him to an off-site hospital,
Lake Cumberland Regional Hospital in Somerset,
Kentucky, which in turn sent him by helicopter to
5
https://www.bjs.gov/content/pub/pdf/mpsfpji1112.pdf
visited February 3, 2021).

(last

18a
the University of Tennessee Medical Center for more
specialized care. Doctors found he was suffering from
a bilateral saddle embolism with right-side heart
strain visible on an ultrasound. Mr. Watford was
placed in intensive care. Medical records reflect that
he was coughing up blood. Doctors performed an
embolectomy, removing an embolism from Mr.
Watford's lung. Ever since, Mr. Watford has been
prescribed a medicine called Apixaxban used to
prevent blood clots arising from atrial fibrillation,
and he still takes that medicine. The medical records
seem to indicate that Mr. Watford's breathing
problems stemmed from the embolism, rather than
from his asthma.
Mr. Watford was diagnosed with another
pulmonary embolism in March 2020. Anticoagulation
therapy was prescribed and continues, with Mr.
Watford having reported mild occasional symptoms.
BOP medical staff saw Mr. Watford last August for
swollen knees, shortness of breath, heavy sweating,
blood clots and elevated blood pressure.
The CDC lists moderate to severe asthma as a
condition that might increase a person's risk from
COVID-19. The government notes that the American
Association of Retired Persons has published an
article (“COVID-19 Risks to People With Asthma
Much Lower Than Expected”), but that article hasn’t
led the CDC to remove asthma from its list. Mr.
Watford's medical records don't appear to show an
ongoing problem with asthma. It appears that Mr.
Watford was diagnosed with asthma many years ago,
and the medical records contain several references to
Mr. Watford's use of an inhaler. But while Mr.
Watford was told to continue using the inhaler after

19a
the embolectomy soon to be discussed, nothing in the
medical records connects his asthma to the
embolism.
Mr. Watford suffered another incident in
December, 2020, in which he was found semiresponsive in his cell and taken to an emergency
room. He recovered with a dose of Narcan, and the
doctors diagnosed a drug overdose. The records don’t
identify the drug that caused Mr. Watford’s problem
that night. The medical records stop there, so the
court can’t know if his prescriptions have been
changed.
In sum:
x Mr. Watford faces an elevated risk of COVID19 because he is in prison, but that’s true of
every federal inmate;
x Mr. Watford is obese, and the CDC recognizes
obesity as a condition that does or might
increase one’s risk from COVID-19, but that’s
true of around 75 percent of inmates;
x Mr. Watford suffers from asthma, which the
CDC lists as a factor that might increase the
risk from COVID-19, but this record doesn’t
allow a finding of its severity or even whether
it has caused Mr. Watford a problem in recent
years; and
x Mr. Watford has suffered from embolisms and
tachycardia, which are matters of concern
because the CDC list suggests anything
affecting the heart or lungs might be a matter
of concern, but the CDC doesn’t specifically
identify either as a factor the might increase
the risk from COVID-19.

20a
Mr. Watford hasn't shown an extraordinary and
compelling reason for compassionate release. As the
court reads the First Step Act, a court has no power
to order any federal inmate released without an
extraordinary and compelling reason. So the court
must deny Mr. Watford's motion. But because
reasonable minds can, and have, differed on this
issue, the court will also discuss the factors that
would affect the decision whether to exercise
discretion—if the court had any—to grant
compassionate release to Mr. Watford.
IV. DISCRETION: SENTENCING FACTORS
A grant of compassionate release would
effectively convert Mr. Watford's 802-month sentence
to one of time served, or about twenty-three-and-ahalf years of actual time served. Such a sentence
would be consistent with sentencing law as it is
understood today.
A. Changes in the Law
Federal sentencing laws have changed, or are
understood differently, in several ways that would
produce a radically different sentence for Mr.
Watford and his crimes today. The First Step Act's
changes to § 924(c), discussed in Part II-A-2 of this
opinion, are the most significant to Mr. Watford's
sentence, but there have been others, as well.
x Mr. Watford was sentenced before the United
States Supreme Court decided that the
sentencing guidelines were advisory rather
than mandatory. United States v. Booker, 543
U.S. 220, 258-266 (2005). When Mr. Watford

21a

x

was sentenced, the court had to choose a
sentence within the guideline range unless
something unique to the case took the case out
of the “heartland” of cases of its sort. See, e.g.,
United States v. Jones, 278 F.3d 711, 716 (7th
Cir. 2002) (“After choosing the applicable
sentencing range, the district court could
apply an upward departure if it found that
Jones' behavior was outside of the ‘heartland’
of conduct embodied by Guideline § 2J1.5.”).
So Mr. Watford didn't ask for, and the court
didn't consider, a sentence below the guideline
range. The court imposed the most lenient
sentence it was authorized to give.
The guidelines are no longer binding on a
sentencing
court.
The
guidelines
are
understood to be advisory: today's sentencing
courts seek a sentence that is reasonable
within the meaning of 18 U.S.C. § 3553(a),
looking first within the range the Sentencing
Guidelines recommended, but are free to look
outside the advisory range, as well. See United
States v. Carter, 961 F.3d 953, 955 (7th Cir.
2020) (“The Sentencing Guidelines are no
longer binding, but the correct calculation of a
defendant's guideline range is 'the starting
point and the initial benchmark' for federal
sentencing.’”).
When Mr. Watford was sentenced in 1998, the
law was understood to mean that, when
deciding the sentence for the underlying felony
(the crime in furtherance of which the firearm
was used or carried), the sentencing court had
to ignore the impending overlay of five (or

22a

x

forty-five) more years under § 924(c). So even
had this court been free to look outside the
guideline range for a reasonable sentence, the
court couldn't have judged “reasonableness”
with an eye toward the forty-five years that
had to be added because of the stacked §
924(c) counts. See United States v. Ikegwuoni,
826 F.3d 408, 410 (7th Cir. 2016) (citing
United States v. Roberson, 474 F.3d 432, 436
(7th Cir. 2007)).
The Supreme Court rejected that doctrine
in Dean v. United States, 137 S.Ct. 1170, 11761177 (2017) (“Nothing in § 924(c) restricts the
authority conferred on sentencing courts by §
3553(a) and the related provisions to consider
a sentence imposed under § 924(c) when
calculating a just sentence for the predicate
count.”). That holding, like the First Step Act's
anti-stacking provision, isn't retroactive,
Worman v. Entzel, 953 F.3d 1004 (7th Cir.
2020), so it doesn’t offer any direct help to Mr.
Watford. But Dean would apply to a defendant
being sentenced today.
The firearm penalty would have only been one
non-guideline factor a sentencing court would
address today. In 1998, once it was established
that the guidelines required a sentence of 802
to 867 months and that there were no grounds
for a downward departure, a sentencing judge
disinclined to impose a sentence longer than
802 months didn't need to discuss statutory
sentencing factors commonly discussed today.
Those factor include the nature and
circumstances of the crimes, the defendant's

23a

x

history and characteristics, the need for the
sentence to reflect the seriousness of the
crime, protect the public from the defendant,
promote respect for the law, and deter the
defendant and others from committing such
crimes. 18 U.S.C. §3553(a). Today, any or all of
those factors could warrant a sentence below
or far below (or above) the advisory guideline
range.
Finally, when Mr. Watford was sentenced in
1998, his base offense catapulted from 25 to 34
because he had two prior felony convictions for
what were at the time crimes of violence that
qualified him for treatment as a career
offender: Mr. Watford was convicted of
burglary of a dwelling in Florida in 1990 and
aggravated assault in Pennsylvania in 1995.
Mr. Watford wouldn't be a career offender
under today's version of the sentencing
guidelines. In 2016, Amendment 798 to the
guidelines removed “residential burglary”
from the list of specific crimes that constitute
crimes of violence under U.S.S.G. § 4B1.2.
A career offender's criminal history is VI,
regardless of his actual past. U.S.S.G. §
4B1.1(b). At the 1998 sentencing, the court
said that if Mr. Watford weren’t a career
offender, he would have been in criminal
history category VI on the strength of his
earned criminal history points. [Doc. No. 99 at
4 n.2]. That wouldn't be true today. In 1998,
two criminal history points were assessed
because a probation violation warrant was
outstanding while he was robbing the banks,

24a
and another point was assessed because he
robbed the banks less than two years after his
aggravated assault conviction. The guidelines
don't assess criminal history points for those
factors today. Under today's sentencing laws,
Mr. Watford would be assigned to criminal
history category V.
B. TODAY'S SENTENCING GUIDELINES
Today's search for a reasonable sentence would
begin with the Sentencing Guidelines. Gall v. United
States, 552 U.S. 38, 49 (2007). The jury found Mr.
Watford guilty of two counts of aggravated bank
robbery, one count of attempted aggravated bank
robbery, and three corresponding § 924(c) counts of
using or carrying a firearm in furtherance of crimes
of violence. The three robbery counts would be
“grouped” and treated as a single offense for
guideline
purposes
because
they
involved
transactions connected by a common criminal
objective. U.S.S.G. § 3D1.2(b). The base offense level
for each of the robbery counts is 20. U.S.S.G. §
2B3.1(a). Each offense level would be increased by
two levels because Mr. Watford and his confederate
took or tried to take money from a financial
institution. The offense levels wouldn't be enhanced
for firearm involvement because of the firearms
because of the separate § 924(c) firearms offenses, so
the base offense level for each robbery offense would
be 22. Each robbery would be a “unit” for guideline
purposes; with three units, Mr. Watford's offense
level would be increased by three levels, to level 25.
At criminal history category V and offense level
25, the guidelines would recommend a sentencing

25a
range of 110 to 137 months for Mr. Watford on the
robbery counts.
That leaves the § 924(c) counts. Without the
stacking used in 1998, each count would carry a
mandatory minimum sentence of five years
consecutive to all other sentences, for a total of
fifteen years in addition to whatever sentences were
imposed on the robbery counts. The government
argues that a firearm was brandished in each
robbery, not simply possessed, so the government
could have charged Mr. Watford with three counts of
brandishing under § 924(c), with each such count
punishable by a mandatory minimum consecutive
sentence of seven years, for a total of twenty-one
years. Maybe so, but Mr. Watford himself only had a
gun during the second robbery. A jury properly
instructed on accessory law might be willing to find
Mr. Watford “used” the firearms his confederate
possessed, but that he didn't “brandish” what he
possessed only constructively. We can't know. In any
event, the record now before the court includes only
convictions for carrying, not brandishing.
With fifteen years, or 180 months, added to the
110 to 137 month advisory range for the robberies,
the guidelines would recommend an aggregate
sentencing range of 290 to 317 months. In 1998, Mr.
Watford faced a sentence of 802 to 867 months.
Today's advisory range would be about forty-four
years shorter than what Mr. Watford faced in 1998.
C. THE STATUTORY SENTENCING FACTORS
A sentencing court in 2021 would turn from the
guideline calculation to the sentencing factors in 18
U.S.C. § 3553(c), which this court would also have to

26a
consider in deciding whether to grant compassionate
release.
1. NATURE AND CIRCUMSTANCES OF THE
OFFENSES, § 3553(A)(1)
The facts of Mr. Watford’s crimes are recounted in
Part I of this opinion. About the only mitigating
aspect of the crimes' nature and circumstances is
that Mr. Watford and Mr. Anderson didn't steal as
much money in the Northern District of Indiana as
some bank robbers do.
Mr. Watford and Mr. Anderson took a little under
$9,000 in the two completed charged robberies.
Nobody was injured, no shots were fired. Mr.
Watford didn't accept any responsibility in 1998. He
denied everything and was convicted at a trial in
which the prosecutor, among other things,
demonstrated that the robber in each charged
robbery wore the same very distinctive athletic shoes
that were identical to what Mr. Watford wore to trial
one day. As part of his compassionate release
submissions in 2020 and 2021, Mr. Watford
convincingly expressed remorse for his actions.
2. THE DEFENDANT'S HISTORY AND
CHARACTERISTICS, § 3553(A)(1)
Mr. Watford was twenty-five years old when he
was sentenced. He had two children, aged five and
two. Mr. Watford quit school in the eleventh grade
and hadn't had a job in three years. He told the
probation officer that he used cocaine and marijuana
every day; he appears to have been ordered to
treatment in another case but never showed up. In

27a
his recent filings, Mr. Watford says he was an addict
in 1997 and the robberies were to let him buy drugs.
3. NEED TO DETER CRIMINAL CONDUCT BY
DEFENDANT AND OTHERS, § 3553(A)(2)(B)
Armed robbery is a very serious crime that calls
for serious penalties to deter the robber and other
potential robbers. This factor supported a significant
sentence in 1998 and still does. Mr. Watford has
been imprisoned for these crimes for nearly half his
life. Judicial experience produces little expertise on
what's needed to deter people, so the Sentencing
Commission's expertise, demonstrated through the
advisory range, ordinarily is the only indication a
judge has of how great or small a sentence will deter.
In 1998, the guidelines required an aggregate
sentence of 835 months give or take about three
years; today they recommend a range with a midpoint of 304 months, give or take fifteen months.
4. PUBLIC PROTECTION FROM THE
DEFENDANT, § 3553(A)(2)(C)
Mr. Watford was a dangerous young man in 1998.
He was a thief and a burglar as a juvenile, with
adjudications for shoplifting, grand theft (twice), and
burglary. He continued his career as a burglar and a
thief after turning eighteen, with adult convictions
for burglary of a dwelling, burglary of a structure
(the structure was a house), grand theft, motor
vehicle theft, and criminal conversion. He also
expanded into violence, with convictions for
aggravated assault and misdemeanor battery. After
five adult felony convictions, Mr. Watford moved into

28a
armed robberies with Mr. Anderson, committing the
three charged, and two uncharged, robberies in
Indiana in a one-month period from the end of April
to the end of May 1998. The protection of the public
demanded that Mr. Watford be isolated for a long
time.
It's now a long time later, and if allowed to
consider compassionate release, the court would have
to evaluate the risk Mr. Watford poses to the public
today. Mr. Watford argues that he poses a much
lower risk today than he seemed to in 1998 because
he was only twenty-five (he started his bank robbery
spree on the day after he turned twenty-five) and,
based on twenty-first century studies, his brain
wasn't fully developed. The studies that Mr. Watford
cites provide virtually no support for the proposition
that the average male brain is still developing
abilities such as risk evaluation, decision making,
and judgment at or after age twenty-five. 6 Each
brain is different, but the studies that have found
their way into the first page or two of Google indicate
that the average male human brain is fully
developed for these purposes by the age of twentyfive, though probably not much before. 7 The court
See James C. Howell et al., Bulletin 5: Young Offenders and
an Effective Response in the Juvenile and Adult Justice
Systems: What Happens, What Should Happen, and What We
Need
to
Know
17
(2013),
https://www.ncjrs.gov/pdffiles1/nij/grants/242935.pdf;
MacArthur Found. Rsch. Network on L. and Neuroscience, How
Should Justice Policy Treat Young Offenders?, 2 Law and
Neuro (Feb, 2017), http://www.lawneuro.ord/adol_dev_brief.pdf.

6

7 Mental Health Daily: At What Age is the Brain Fully
Developed?, https://mentalhealthdaily.com/2015/02/18/at-what-

29a
can't confidently find mitigation in Mr. Watford's age
at the time of these crimes.
At age forty-eight today, Mr. Watford might be
thought to be reaching the time in life in which
people age out of criminal activity, but the
government cites persuasive studies for the
proposition that offenders who have committed gunrelated crimes engage in serious conduct and
recidivate far more deeply into life than other
offenders.8 The passage of time might affect the need
to protect the public, but Mr. Watford's age—either
now or when he was robbing banks—doesn't.
Still, it's been a long time since Mr. Watford
committed a felony. During his decades in prison,
Mr. Watford has had no serious disciplinary
infractions. Some of his less serious infractions can't
be called entirely minor — e.g., possessing a
dangerous weapon (2003, 2008, 2011) fighting with
another person (2003, 2010, 2012), and bribing a
staff member (2003). Still, the only offense of any
sort he's had since 2012 was letting another inmate
take his turn on the phone in July 2014, and there
have been no offenses at all since then.
age-is-the-brain-fullydeveloped/#:~:text=For%20some%20people%2C%20brain%20de
velopment%20may%20be%20complete,for%20when%20the%20
brain%20has%20likely%20become%20mature (last accessed
February 8, 2021); NPR: Brain Maturity Extends Well Beyond
Teen
Years,
https://www.npr.org/templates/story/story.php?storyId=1411647
08 (last accessed February 8, 2021).
Recidivism
Among
Federal
Firearms
Offenders,
https://www.ussc.gov/research/research-reports/recidivismamong-federal-firearms-offenders.

8

30a
Mr. Watford has taken a basketful of educational
and personal improvement courses—more than one
might expect of an inmate who would be eighty-three
when released from prison. He earned his GED. He
has learned marketable skills such as cooking,
commercial trucking, forklift operation, industrial
sewing, building trades, and computer skills. He has
taken personal development courses such as
astronomy, business, ceramics, creative writing,
finance, job search and interview skills, legal
research, public speaking, parenting, real estate, and
resume writing.
If released today, Mr. Watford would return to
society with far more life and job skills than when he
went into prison. As dangerous a man as he was
when he was sentenced in 1998, he appears to pose a
lower than average risk of crime today.
5. KINDS OF SENTENCES AVAILABLE,
3553(A)(3)
This wasn't a concern in 1998, when the
sentencing guidelines were understood to be
mandatory. The only kind of sentence available for
Mr. Watford was a sentence between 802 and 867
months' imprisonment, and the court added a threeyear supervised term. Authority to grant
compassionate release would leave the court a binary
choice: the court could either leave Mr. Watford in
custody to serve the rest of his sentence, or could
effectively commute the sentence to time served and
start Mr. Watford on either his original three-year
supervised release term or an extended supervised
term.

31a
6. THE RANGE RECOMMENDED BY THE
SENTENCING GUIDELINES, § 3553(A)(4)(A)
The mandatory guidelines range was 802 to 867
months under 1998 sentencing law; the advisory
guideline range is 290 to 317 months under the law
as it's understood today.
7. NEED TO REFLECT THE SERIOUSNESS OF
THE OFFENSES, § 3553(A)(2)(A)
This factor ordinarily overlaps and virtually
duplicates that analysis of the nature and
circumstances of the offense. This record presents no
basis to distinguish those two factors. Mr. Watford's
crimes are very serious, and demand a substantial
sentence.
8. NEED TO PROMOTE RESPECT FOR THE
LAW, § 3553(A)(2)(A)
The public expects significant sentences for
armed bank robbers, especially for those who
committed three armed bank robberies, and
especially those who committed three armed bank
robberies after five previous and unrelated felony
convictions. Mr. Watford received a significant
sentence, consistent with the law as it existed and
was understood at the time in 1998. A significant
sentence under the law as it exists and is understood
today would be considerably less than what Mr.
Watford received in 1998.
Under neither 1998 law nor 2021 law could the
public expect a death sentence for an offender such
as Mr. Watford, and the law for which the sentence

32a
should promote respect for includes the First Step
Act's provisions for compassionate release.
9. NEED TO PROVIDE JUST PUNISHMENT
FOR THE OFFENSES, § 3553(A)(2)(A)
This factor frequently overlaps and virtually
duplicates that analysis of the nature and
circumstances of the offense. This record provides no
basis on which to distinguish the two factors. The
offenses included no mitigation that would call for a
different analysis.
10. THE NEED TO AVOID UNWARRANTED
SENTENCING DISPARITIES, § 3553(A)(6)
Two types of disparities are apparent. Ricky
Anderson chose to plead guilty and testify against
Mr. Watford, and he pleaded guilty before a
superseding indictment added stackable § 924(c)
counts to the second Sobieski Federal robbery and
the attempted Elcose robbery. Mr. Anderson received
an aggregate 200-month sentence—602 months less
than what Mr. Watford received. Mr. Watford points
to this as a disparity. It's a troubling difference: Mr.
Anderson displayed a gun in all five robberies while
Mr. Watford did so only in two, so Mr. Anderson
appears to have been more culpable but received less
than a quarter of what Mr. Watford got. But while
troubling, it's not an unwarranted disparity. Mr.
Anderson was convicted of three bank robbery
charges but only one § 924(c) count, and he accepted
responsibility for the crimes when he pleaded guilty.
The sentencing guidelines, which were equally
binding when Mr. Anderson was sentenced, produced

33a
the disparity between the Anderson and Watford
sentences.
But this case presents another troubling
disparity. This disparity, too, might not be strictly
unwarranted, but is much closer to the concept. If a
defendant identical in all respects to John Watford
committed crimes identical in all respects to what
Mr. Watford did twenty-four years ago and appeared
in a federal court for sentencing today, and if the
guideline range presented a reasonable sentence, his
sentence would be 305 months, give or take a year.
That hypothetical defendant would be released from
prison before 2050—and John Watford would still
have years to serve. Mr. Watford could welcome that
person into the prison and wish the person well as he
left after completing his prison sentence. That
disparity might not be “unwarranted” in the sense
federal sentencing law uses the term—each sentence
would have been properly calculated under thenprevailing law—but no other word in the English
language better describes it.
Accounting for good time, Mr. Watford already
has served the equivalent of a twenty-seven-year
sentence, or 324 months.
11. THE NEED TO PROVIDE RESTITUTION
TO ANY VICTIMS, § 3553(A)(7)
Mr. Watson and Mr. Anderson were both ordered
to make restitution to Sobieski Federal. The parties'
submissions don't mention those obligations, so the
court assumes restitution has been made.

34a
12. NEED TO PROVIDE REHABILITATIVE
TREATMENT, § 3553(A)(2)(D)
Mr. Watford didn't appear to present a particular
need for rehabilitative treatment in 1998, and the
same statement seems appropriate today.
D. THE EXERCISE OF DISCRETION, IF
THERE WERE ANY
Nearly all of the statutory sentencing factors lead
to the conclusion that an 802-month sentence for Mr.
Watford's crimes is excessive as we understand the
law in 2021. It would remain to consider whether the
compassionate release motion should be granted.
Even with authority to grant Mr. Watford relief,
the court couldn't revise his existing sentence to fit
what might be reasonable under today's sentencing
law. Granting a motion for compassionate release
effectively converts a sentence to time served, with
supervision to follow. A court ordinarily would
hesitate because Mr. Watford hasn't served even half
his sentence. Mr. Watford calculates that with good
time credit, he has served the equivalent of a twentyseven-year sentence so far, which translates to 324
months.
The
sentencing
guidelines
would
recommend an aggregate sentence of 290 to 317
months, so Mr. Watford already has served longer
than the guidelines would recommend. Given that,
and given all the circumstances discussed in this
opinion, the court would grant Mr. Watford's motion
for compassionate release—if it had the authority to
do so.

35a
V. CONCLUSION
John Watford committed two armed bank
robberies and one attempted armed bank robbery
with an accomplice in 1997. This court—this judge—
sentenced him to 802 months for his crimes. Mr.
Watford received an extra two decades in prison for
the robbery in which he was armed, and an extra two
and a half decades for the crimes in which he wasn't
shown to have been armed. No guns were fired, even
in the two uncharged robberies. Tellers suffer
emotional harm from the armed robbers, but no one
was physically injured in the charged or uncharged
robberies. Banks lost less than $10,000 in the three
charged events. The sentence of sixty-six years and
eight months was the low end of the binding
guideline range, an example of the Draconian nature
of the sentencing law of that age, and a manifestly
unreasonable sentence by today's standards. If there
were any legal authority to do so, this court—this
judge—would order Mr. Watford released from
prison. But a court’s belief that a defendant’s release
would serve justice doesn’t give the court the power
needed to act. That power must come from the law.
This opinion is meant to explain both why the court
can’t grant relief under 18 U.S.C. § 3582(c)(1)(A), and
why it would grant relief if it could.
Mr. Watford exhausted his administrative
remedies, but hasn't shown that an extraordinary
and compelling reason justifies compassionate
release. He must show both for the court to grant
relief. Accordingly, the court DENIES his motion for
compassionate release. [Doc. No. 304].

36a
SO ORDERED this 12th day of February,
2021.
/s/ Robert L. Miller, Jr
Robert L. Miller, Jr., Judge
United States District Court

